                                                                             Office of Inspector General
   DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Office of Audit Services



                                                                             Region VII
                                                                             601 East 12th Street
                                                                             Room 0429
                                                                             Kansas City, Missouri 64106
October 13, 2009

Report Number: A-07-09-00295

Mr. Brian Fitzpatrick
Director Internal Audit
Blue Cross Blue Shield of Montana
404 Fuller Avenue
Helena, Montana 59604

Dear Mr. Fitzpatrick:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of the Qualified Pension Plan at Blue Cross Blue
Shield of Montana, a Terminated Medicare Contractor, for the Period January 1, 2004, to
November 30, 2006.” We will forward a copy of this report to the HHS action official noted on
the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-09-00295
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Brian Fitzpatrick

Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, Maryland 21244-1850
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




REVIEW OF THE QUALIFIED PENSION
PLAN AT BLUE CROSS BLUE SHIELD
          OF MONTANA,
    A TERMINATED MEDICARE
  CONTRACTOR, FOR THE PERIOD
       JANUARY 1, 2004, TO
      NOVEMBER 30, 2006



                       Daniel R. Levinson
                        Inspector General

                         October 2009
                         A-07-09-00295
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Blue Cross Blue Shield of Montana (Montana) administered Medicare Part A and Part B
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS). On November 30, 2006, the Part A and Part B contractual relationship was
terminated. The closing date for the Medicare segment was November 30, 2006.

Montana sponsors a defined benefit pension plan, which is a deferred compensation plan in
which an employer makes actuarially determined contributions to fund an employees’ retirement
benefit as defined by the plan’s terms.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.
Furthermore, in situations such as contract terminations, the Medicare contracts require
contractors to identify excess Medicare pension liabilities in accordance with CAS 413.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts to ensure conformance with CAS 413. The Medicare contracts define a
segment and specify the methodology for the identification and initial allocation of pension
assets to the segment. Additionally, the contracts require Medicare segment assets to be updated
for each year after the initial allocation in accordance with CAS 412 and 413.

Upon the termination of its Medicare contracts, Montana identified Medicare’s share of the
Medicare segment excess pension liabilities to be $1,783,379.

OBJECTIVE

Our objective was to determine whether Montana complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

      updating Medicare segment assets from January 1, 2004, to November 30, 2006, and

      determining Medicare’s share of the Medicare segment excess pension liabilities as of the
       termination of Montana’s Medicare contracts.

SUMMARY OF FINDINGS

Montana did not always comply with the Medicare contract’s pension segmentation
requirements when updating Medicare segment assets to November 30, 2006. As a result,
Montana overstated the Medicare segment pension assets by $21,032. The overstatement
occurred primarily because Montana misidentified Medicare segment participants.


                                                 i
In addition, Montana did not fully comply with Federal requirements in its calculation of
Medicare’s share of the Medicare segment excess pension liabilities associated with the
termination of the Medicare contracts. As a result, Montana overstated Medicare’s share of
excess liabilities by $32,853.

RECOMMENDATIONS

We recommend that Montana:

      decrease Medicare segment pension assets as of November 30, 2006, by $21,032 and

      decrease Medicare’s portion of the Medicare segment’s excess pension liabilities by
       $32,853, and therefore recognize $1,750,526 as Medicare’s portion.

AUDITEE COMMENTS

In written comments on our draft report, Montana concurred with our recommendations.
Montana’s comments are included in their entirety as Appendix C.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION......................................................................................................................... 1

          BACKGROUND ................................................................................................................ 1
              Blue Cross Blue Shield of Montana and Medicare................................................. 1
              Federal Requirements ............................................................................................. 1
              Pension Segmentation............................................................................................. 1

          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................. 2
               Objective ................................................................................................................. 2
               Scope....................................................................................................................... 2
               Methodology ........................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ............................................................................... 3

          UPDATE OF MEDICARE SEGMENT PENSION ASSETS............................................ 3
              Federal Requirements ............................................................................................. 3
              Contributions and Prepayment Credits Understated………………………………4
              Net Transfers Overstated ........................................................................................ 5
              Earnings and Expenses Understated………………………………………………5

          MEDICARE SEGMENT EXCESS PENSION LIABILITIES .......................................... 5
               Federal Requirements ............................................................................................. 5
               Excess Medicare Segment Pension Liabilities as of November 30, 2006.............. 6
               Medicare’s Share of Excess Pension Liabilities as of
                 November 30, 2006............................................................................................ 6

          RECOMMENDATIONS.................................................................................................... 7

          AUDITEE COMMENTS.................................................................................................... 8

APPENDIXES

    A – STATEMENT OF MARKET VALUE OF PENSION ASSETS FOR BLUE CROSS
        BLUE SHIELD OF MONTANA FOR THE PERIOD JANUARY 1, 2004, TO
        NOVEMBER 30, 2006

    B – CALCULATION OF AGGREGATE MEDICARE PERCENTAGE

    C – AUDITEE COMMENTS




                                                                    iii
             Glossary of Abbreviations and Acronyms

CAS       Cost Accounting Standards
CMS       Centers for Medicare & Medicaid Services
FAR       Federal Acquisition Regulation
Montana   Blue Cross Blue Shield of Montana
WAV       weighted average value




                                 iv
                                       INTRODUCTION

BACKGROUND

Blue Cross Blue Shield of Montana and Medicare

Blue Cross Blue Shield of Montana (Montana) administered Medicare Part A and Part B
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS). On November 30, 2006, the Part A and Part B contractual relationship was
terminated. The closing date for the Medicare segment was November 30, 2006.

Montana sponsors a defined benefit pension plan, which is a deferred compensation plan in
which an employer makes actuarially determined contributions to fund an employees’ retirement
benefit as defined by the plan’s terms.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation (FAR), Cost Accounting Standards (CAS), and Medicare
contracts. Furthermore, in situations such as contract terminations, the Medicare contracts
require contractors to identify excess Medicare pension liabilities in accordance with CAS 413.

Federal Requirements

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods. CAS 413 also addresses the determination of segment
assets and liabilities in the event of contract terminations, segment closings, or pension plan
terminations.

Pension Segmentation

CMS incorporated CAS 412 and 413 into the Medicare contracts effective October 1, 1980.
Beginning with fiscal year 1988, CMS incorporated segmentation requirements into Medicare
contracts. The Medicare contracts define a segment and specify the methodology for the
identification and initial allocation of pension assets to the segment. The contracts require
Medicare segment assets to be updated for each year after the initial allocation in accordance
with CAS 412 and 413. In claiming costs, contractors must follow cost reimbursement
principles contained in the FAR, CAS, and the Medicare contracts.

Upon the termination of its Medicare contracts, Montana identified Medicare’s share of the
Medicare segment excess pension liabilities to be $1,783,379.




                                                1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Montana complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

       updating Medicare segment assets from January 1, 2004, to November 30, 2006, and

       determining Medicare’s share of the Medicare segment excess pension liabilities as of the
        termination of Montana’s Medicare contracts.

Scope

We reviewed Montana’s identification of its Medicare segment; update of Medicare segment
assets from January 1, 2004, to the November 30, 2006, determination of final segment
liabilities; and development of Medicare’s share of the Medicare segment’s excess liabilities as
of November 30, 2006.

Achieving our objective did not require us to review Montana’s overall internal control structure.
We reviewed controls relating to the identification of the Medicare segment, the update of the
segment’s assets, the determination of the final segment liabilities, and the development of
Medicare’s share of the segment’s excess pension liabilities.

We performed fieldwork at Montana in Helena, Montana, during September 2008.

Methodology

To accomplish our objective, we did the following:

        We reviewed the applicable portions of the FAR, CAS, and the Medicare contracts.

        We reviewed the annual actuarial valuation reports prepared by Montana’s actuarial
         consulting firm, which included the pension plan’s assets, liabilities, normal costs,
         contributions, benefit payments, investment earnings, and administrative expenses. We
         used this information to calculate the Medicare segment assets.

        We obtained the pension plan documents and Department of Labor/Internal Revenue
         Service Form 5500s used in calculating the Medicare segment assets.

        We interviewed Montana staff responsible for identifying the Medicare segment to
         determine whether the segment was properly identified in accordance with the Medicare
         contracts.

        We reviewed Montana’s accounting records to verify the segment identification and
         benefit payments made to the Medicare segment.


                                                2
       We provided the CMS Office of the Actuary with the actuarial information necessary
        for it to calculate the Medicare segment assets and the Medicare segment excess
        pension liabilities as of November 30, 2006.

       We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with our audit of Montana’s pension costs claimed for
Medicare reimbursement (A-07-09-00296) and used the information obtained during that audit in
this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Montana did not always comply with the Medicare contract’s pension segmentation
requirements when updating Medicare segment assets to November 30, 2006. As a result,
Montana overstated the Medicare segment pension assets by $21,032. The overstatement
occurred primarily because Montana misidentified Medicare segment participants.

In addition, Montana did not fully comply with Federal requirements in its calculation of
Medicare’s share of the Medicare segment excess pension liabilities associated with the
termination of the Medicare contracts. As a result, Montana overstated Medicare’s share of
excess liabilities by $32,853.

UPDATE OF MEDICARE SEGMENT PENSION ASSETS

Federal Requirements

The Medicare contracts identify a Medicare segment as:

       . . . any organizational component of the contractor, such as a division,
       department, or other similar subdivision, having a significant degree of
       responsibility and accountability for the Medicare contract/agreement, in which:

              1. The majority of the salary dollars is allocated to the Medicare
                 agreement/contract; or,

              2. Less than a majority of the salary dollars are charged to the Medicare
                 agreement/contract, and these salary dollars represent 40% or more of
                 the total salary dollars charged to the Medicare agreement/contract.




                                               3
The Medicare contracts also state that “. . . the pension assets allocated to each Medicare
Segment shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires
that the asset base be adjusted by contributions, permitted unfunded accruals, income, benefit
payments, and expenses. In addition, CAS 413.50(c)(8) requires an adjustment to be made for
transfers (participants who enter or leave the segment) if the transfers materially affect the
segment’s ratio of pension plan assets to actuarial accrued liabilities.

For plan years beginning on or before March 30, 1995, the CAS requires investment income and
expenses to be allocated among segments in proportion to the beginning-of-year asset value. For
plan years beginning after March 30, 1995, the CAS requires investment income and expenses to
be allocated among segments based on the ratio of the segment’s weighted average value (WAV)
of assets to total company WAV of assets.

Furthermore, CAS 412.50(a)(4) requires that contributions in excess of the pension cost assigned
to the period be recognized as prepayment credits and accumulated at the assumed valuation
interest rate until applied to future period costs. Prepayment credits that have not been applied to
fund pension costs are excluded from the value of assets used to compute pension costs.

Appendix A presents details of the Medicare segment’s pension assets from January 1, 2004, to
November 30, 2006, as determined during our audit. Table 1 summarizes the audit adjustments
required to update Medicare segment pension assets in accordance with Federal requirements.

       Table 1: Summary of Audit Adjustments in Updating Medicare Segment Assets
                                                   Per OIG         Per       Difference
                                                                Montana
Update of Medicare Segment Assets
  Contributions and Transferred Prepayment Credits $1,157,937    $1,087,267      $70,670
  Transfers                                         (581,444)     (411,548)    (169,896)
  Earnings, net expenses                              819,039       740,845       78,194
Overstatement of Medicare segment assets                                                ($21,032)

Contributions and Prepayment Credits Understated

Montana understated contributions and prepayment credits by $70,670 for the Medicare
segment. The understatement was due to incorrect calculations of assigned pension costs.
Specifically, Montana misidentified Medicare segment participants, which resulted in incorrect
calculations of assigned pension costs. As a result, Montana understated the Medicare segment
assets by $70,670.

The audited contributions and prepayment credits are based on the assignable pension costs. In
compliance with the CAS, we applied prepayment credits first to current-year assignable pension
costs because the credits were available at the beginning of the year, and then updated any
remaining credits with interest to the next measurement (valuation) date. We then allocated
contributions as needed to assigned pension costs as of the date of deposit.




                                                 4
Net Transfers Overstated

Montana overstated the participant transfer adjustments in its update of Medicare segment assets
by $169,896. Montana made adjustments for transfers in its update of segment assets; however,
Montana incorrectly identified the participants who transferred in and out of the segment. As a
result, Montana overstated its Medicare segment assets by $169,896.

Earnings and Expenses Understated

Montana understated investment earnings, less administrative expenses, by $78,194 for the
Medicare segment. The understatement of net investment was due to a difference in the
Medicare segment asset values throughout the update period. The differences in asset values
were caused by differences in the values of other roll-up components. In our audited update, we
allocated earnings and expenses based on the applicable CAS requirements.

MEDICARE SEGMENT EXCESS PENSION LIABILITIES

Federal Requirements

Medicare Contracts

In the event of a contract termination, the Medicare contracts require contractors to follow the
segment closing provision of the CAS. Furthermore, in situations such as contract terminations,
the Medicare contracts require contractors to identify excess Medicare pension liabilities in
accordance with CAS 413.

Cost Accounting Standards

During 1980, CMS renegotiated the Medicare contracts and expressly incorporated CAS 412 and
413 into the contracts beginning October 1, 1980.

Contract terminations and segment closings are addressed by CAS 413.50(c)(12), which states:

       If a segment is closed, if there is a pension plan termination, or if there is a
       curtailment of benefits, the contractor shall determine the difference between the
       actuarial liability for the segment and the market value of the assets allocated to
       the segment, irrespective of whether or not the pension plan is terminated. The
       difference between the market value of the assets and the actuarial accrued
       liability for the segment represents an adjustment of previously-determined
       pension costs.

       (i) The determination of the actuarial accrued liability shall be made using the
       accrued benefit cost method. The actuarial assumptions employed shall be
       consistent with the current and prior long term assumptions used in the
       measurement of pension costs . . . .




                                                5
        (ii) . . . The market value of the assets shall be reduced by the accumulated value
        of prepayment credits, if any. Conversely, the market value of assets shall be
        increased by the current value of any unfunded actuarial liability separately
        identified and maintained in accordance with 9904.412-50(a)(2).

        (iii) The calculation of the difference between the market value of the assets and
        the actuarial accrued liability shall be made as of the date of the event (e.g.,
        contract termination, plan amendment, plant closure) that caused the closing of
        the segment, pension plan termination, or curtailment of benefits. If such a date is
        not readily determinable, or if its use can result in an inequitable calculation, the
        contracting parties shall agree on an appropriate date.

Excess Medicare Segment Pension Liabilities as of November 30, 2006

Montana identified $1,783,379 in excess Medicare segment pension liabilities as of
November 30, 2006. However, we calculated the excess pension liabilities to be $1,764,287 as
of that date. Therefore, Montana overstated the excess pension liabilities by $19,092. The
overstatement occurred because Montana did not comply fully comply with Federal
requirements in its calculation of the Medicare segment’s excess pension liabilities. Specifically,
Montana overstated the segment’s final assets (as previously discussed), misidentified final
segment participants, and did not consider accumulated unallowable unfunded pension costs.
Table 2 summarizes the differences between Montana’s and our calculations.

                    Table 2: Adjustments to Excess Medicare Segment Pension Liabilities
                                                          Per Audit       Per Montana         Difference
Medicare segment assets as of November 30, 2006             $3,343,733        $3,364,765         ($21,032)
Accrued liabilities of segment participants                (5,117,232)       (5,148,144)           30,912
Accumulated unfunded pension costs                               9,212                    0          9,212
Medicare segment excess pension liabilities               ($1,764,287)      ($1,783,379)
Overstatement of Medicare Segment Excess                                                          $19,092
Liabilities

Medicare’s Share of Excess Pension Liabilities as of November 30, 2006

Federal Requirements

The methodology for determining the Federal Government’s share of excess pension liabilities is
addressed by CAS 413.50(c)(12)(vi), which states:

        The Government’s share of the adjustment amount determined for a segment shall
        be the product of the adjustment amount and a fraction. The adjustment amount
        shall be reduced for any excise tax imposed upon assets withdrawn from the
        funding agency of a qualified pension plan. The numerator of such fraction shall
        be the sum of the pension plan costs allocated to all contracts and subcontracts
        (including Foreign Military Sales) subject to this Standard during a period of
        years representative of the Government’s participation in the pension plan. The


                                                    6
       denominator of such fraction shall be the total pension costs assigned to cost
       accounting periods during those same years. This amount shall represent an
       adjustment of contract prices or cost allowance as appropriate. The adjustment
       may be recognized by modifying a single contract, several but not all contracts, or
       all contracts, or by use of any other suitable technique. [Emphasis added.]

Montana’s Approach

Montana’s development of Medicare’s share of the excess pension liabilities showed that
100 percent of the segment’s excess pension liabilities were associated with Medicare
operations. This approach did not comply with the pension cost methodology specified by CAS
413. Therefore, Montana did not follow the CAS in determining Medicare’s share of excess
pension liabilities.

Results per Audit

Montana computed $1,783,379 as Medicare’s share of the Medicare segment excess pension
liabilities as of November 30, 2006; however, we determined that Medicare’s share was
$1,750,526. Therefore, Montana overstated Medicare’s share by $32,853.

In accordance with CAS 413.50(c)(12)(vi), we calculated the aggregate Medicare percentage
using the Medicare segment pension costs developed during both the previous and the current
pension audits. Appendix B shows our calculation of the Medicare segment’s aggregate
Medicare percentage; Table 3 shows our calculation of Medicare’s share of the excess liabilities.

          Table 3: Medicare’s Share of Excess Liabilities (Adjustment)
                  Excess Medicare    Aggregate Medicare      Excess Liabilities
                     Segment            Percentage (B)         Attributable to
                   Liabilities (A)                           Medicare (A x B)

Per audit               ($1,764,287)           99.22%                   ($1,750,526)
Per Montana              (1,783,379)          100.00%                    (1,783,379)
 Difference                                                                  $32,853


RECOMMENDATIONS

We recommend that Montana:

      decrease Medicare segment pension assets as of November 30, 2006, by $21,032 and

      decrease Medicare’s portion of the Medicare segment’s excess pension liabilities by
       $32,853 and therefore recognize $1,750,526 as Medicare’s portion.




                                                7
AUDITEE COMMENTS

In written comments on our draft report, Montana concurred with our recommendations.
Montana’s comments are included in their entirety as Appendix C.




                                             8
APPENDIXES
                                                                                                                      Page 1 of 2

                       APPENDIX A: STATEMENT OF MARKET VALUE OF PENSION ASSETS

                                FOR BLUE CROSS BLUE SHIELD OF MONTANA

                           FOR THE PERIOD JANUARY 1, 2004, TO NOVEMBER 30, 2006


                 Description                             Total Company             “Other” Segment            Medicare Segment

   Assets January 1, 2004                      1/              $31,511,139                 $29,481,633                  $2,029,506

   Transferred Prepayment Credits              2/                        0                    (347,151)                   347,151
   Contributions                               3/                3,765,000                   3,765,000                          0
   Earnings                                    4/                2,916,546                   2,682,983                    233,563
   Benefit Payments                            5/               (4,306,799)                 (4,255,541)                   (51,258)
   Expenses                                    6/                 (149,414)                   (137,449)                   (11,965)
   Transfers                                   7/                        0                     (19,501)                    19,501

   Assets January 1, 2005                                       33,736,472                 31,169,974                   2,566,498

   Transferred Prepayment Credits                                        0                    (421,018)                   421,018
   Contributions                                                 8,075,000                   8,075,000                          0
   Earnings                                                      2,774,067                   2,521,970                    252,097
   Benefit Payments                                             (1,746,485)                 (1,746,485)                         0
   Expenses                                                       (166,377)                   (151,257)                   (15,120)
   Transfers                                                             0                     382,910                   (382,910)

   Assets January 1, 2006                                       42,672,677                 39,831,094                   2,841,583

   Transferred Prepayment Credits                                        0                    (389,768)                   389,768
   Contributions                                                         0                           0                          0
   Earnings                                                      4,801,847                   4,429,369                    372,478
   Benefit Payments                                             (2,417,931)                 (2,387,884)                   (30,047)
   Expenses                                                       (154,879)                   (142,865)                   (12,014)
   Transfers                                                             0                     218,035                   (218,035)

   Assets November 30, 2006                                    $44,901,714                 $41,557,981                  $3,343,733
   Per Montana                                 8/              $44,901,714                 $41,536,949                  $3,364,765
   Asset Variance                              9/                       $0                     $21,032                   ($21,032)


FOOTNOTES

 1/ We determined the Medicare segment assets as of January 1, 2004, based upon our prior segmentation audit of Montana (A-07-
    07-00226). The amounts shown for the “Other” segment represent the difference between the Total Company and the
    Medicare segment. All pension assets are shown at market value.

 2/ Prepayment credits represent funds available to satisfy future funding requirements and are applied to future funding
    requirements before current year contributions in order to reduce interest costs to the Federal Government. Prepayment credits
    are transferred to the Medicare segment as needed to cover funding requirements.

 3/ We obtained Total Company contribution amounts from the actuarial valuation reports and Department of Labor/Internal
    Revenue Service Form 5500s. We allocated Total Company contributions to the Medicare segment based on the ratio of the
    Medicare segment funding target divided by the Total Company funding target. Contributions in excess of the funding targets
    were treated as prepayment credits and accounted for in the “Other” segment until needed to fund pension costs in the future.
                                                                                                                    Page 2 of 2


4/ We obtained investment earnings from actuarial valuation reports and documents prepared by Montana’s actuarial consulting
   firm. We allocated investment earnings based on the ratio of the segment’s weighted average value (WAV) of assets to total
   company WAV of assets as required by the Cost Accounting Standards (CAS).

5/ We calculated the Medicare segment’s benefit payments based on actual payments to Medicare segment retirees. We obtained
   information on the benefit payments from documents prepared by Montana’s actuarial consulting firm. We used actual benefit
   payments for Medicare segment retirees. We reviewed and accepted Montana’s benefit payments to Medicare segment retirees.


6/ We allocated administrative expenses to the Medicare segment in proportion to investment earnings.

7/ We identified participant transfers between segments by comparing valuation data files provided by Montana. Asset transfers
   were equal to the actuarial liability determined under the accrued benefit cost method in accordance with the CAS.

8/ We obtained total asset amounts as of November 30, 2006, from documents prepared by Montana’s actuarial consulting firm.

9/ The asset variance represents the difference between our calculation of Medicare segment assets and Montana’s calculation of
   Medicare segment assets.
             APPENDIX B: CALCULATION OF
           AGGREGATE MEDICARE PERCENTAGE

Fiscal Year 1/      Medicare         Total Medicare      Medicare's
                 Segment Pension    Segment Pension      Aggregate
                      Costs             Costs (B)        % (A/B) 2/
                   Charged to
                   Medicare (A)
   1990              $8,251               $8,515
   1991              27,415               28,522
   1992               9,372                9,507
   1993              94,934               96,497
   1994             125,003              127,217
   1995             105,830              105,830
   1996              76,725               77,173
   1997              70,432               70,900
   1998              17,728               17,805
   1999              47,438               47,681
   2000              15,794               15,894
   2001                 0                    0
   2002             158,554              162,686
   2003             301,065              301,065
   2004             338,530              342,642
   2005             401,504              402,551
   2006             395,752              397,581
   2007              64,870               64,961
  Total            $2,259,197           $2,277,027         99.22%


1/ We obtained information for fiscal years (FY) 1990-2003 from our
   prior pension costs claimed audit (A-07-07-00227). We obtained
   information for FYs 2004-2007 during our current pension costs
   claimed audit
    (A-07-09-00296).

2/ We calculated the aggregate Medicare percentage by dividing the
   Medicare segment pension costs charged to Medicare (numerator) by
   the total Medicare segment pension costs (denominator) pursuant to
   Cost Accounting Standard 413.
                          APPENDIX C: AUDITEE COMMENTS 




    .• ,• ofg:~::ft~J
              Montana
       live Smar t Live Healthy.'"
                                                                                                     --­560 N   "-t,.,...
                                                                                                             !'OBo..~309


                                                                                         Cuol_,,*",,-lno, tiOO«lM

                                                                                                   w_.bcblml.com


      September 23, 2009




      Patrick J. Cogley
      Reglonalln~pector   General for Audit   Service~

      Office o f Inspector Geoeral
      Office 01 Audit Services, Region VII
      601 E 12'· SI, Room 0429 

      Kansas Ci ty MO 64106 



      lie:; Oraft DIG Report Number:    A·07·09·00295


      Deaf Mr. Cogley:


      BlueCross 81ueShieid of Montana (BC8SMT) is in receipt of the drafl copies of the OIG report entitled
      NReview of the Qualified Pension Plan at BC6SMT, a Term loa ted Medicare Contractor, for the Period
      January 1, 2004 To November 30, 2006,N


      In this report, the OIG recommends tha i BCBSMT decrease our Medicare segment pension aS5.ets as of
      Novemb{or )0, 2006 by $21,032 and d&rease our portion of the Medicare segmen t's excess liabilities by
      $32,853.


      BCBSMT concurs with this retommendation . tn 3crordance with our exit from the Medicare fee ·for­
      servite program, we ant itipa te reaching a globat sett lemen t agreement with CMS, During negotia t ions
      for that agreemen t, we will recognize $1,750,S26 as the excess liabilities for our Meditare pension
      segment.


      We are thankful for the opportunity to respond to the dra ft report . We also appreciate the 

      professionalism your staff exhibited t hroughou t the audit. If you have any questions abou t our 

      response, please contact Erin Frisbey, 406·444 -8983. 



      Sincerely,




      Brian Fitzpatrick
      BC6SMT Director Internal Audi t




.. ,.01 ......' ",.", O. ,., ""' <. 0" ••• ,. ", ,.,". '''0< .. ''0' •• "'0'''''0' 0' ,'.",..,., "" uo ..... "., ,.",. ' ....
